TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2012



                                      September 28, 2012

                              Reference Number: 2012-20-114




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


TREASURY INSPECTOR GENERAL FOR                        eight program areas met the level of
TAX ADMINISTRATION – FEDERAL                          performance specified by the Department of
INFORMATION SECURITY                                  Homeland Security’s Fiscal Year 2012 Inspector
MANAGEMENT ACT REPORT FOR                             General FISMA Reporting Metrics:
FISCAL YEAR 2012                                             Continuous monitoring management.
                                                             Incident response and reporting.
Highlights                                                   Risk management.
Report issued on September 28, 2012                          Plan of action and milestones.

Highlights of Report Number: 2012-20-114 to                  Remote access management.
the Department of the Treasury, Office of the                Contingency planning.
Inspector General, Assistant Inspector General
for Audit.                                                   Contractor systems.
IMPACT ON TAXPAYERS                                          Security capital planning.
The IRS collects and maintains a significant          However, TIGTA determined that the following
amount of personal and financial information on       program areas did not meet the level of
each taxpayer. The IRS also relies extensively        performance specified by the Department of
on computerized systems to support its                Homeland Security’s Fiscal Year 2012 Inspector
responsibilities in collecting taxes, processing      General FISMA Reporting Metrics as a result of
tax returns, and enforcing the Federal tax laws.      specific program attributes that were missing or
As custodians of taxpayer information, the IRS        other conditions identified that reduced program
has an obligation to protect the confidentiality of   effectiveness:
this sensitive information against unauthorized
access or loss. Otherwise, taxpayers could be                Configuration management.
exposed to invasion of privacy and financial loss            Identity and access management.
or damage from identity theft or other financial
crimes.                                                      Security training.

WHY TIGTA DID THE AUDIT                               WHAT TIGTA RECOMMENDED
The Federal Information Security Management           TIGTA does not include recommendations as
Act (FISMA) was enacted to strengthen the             part of its annual FISMA evaluation and reports
security of information and systems within            only on the level of performance achieved by the
Federal agencies. As part of this legislation, the    IRS using the guidelines issued by the
Offices of Inspectors General are required to         Department of Homeland Security for the
perform an annual independent evaluation of           applicable FISMA evaluation period.
each Federal agency’s information security
programs and practices. This report reflects
TIGTA’s independent evaluation of the status of
the IRS’s information security program for Fiscal
Year 2012.
WHAT TIGTA FOUND
Based on our Fiscal Year 2012 FISMA
evaluation, TIGTA found that the IRS’s
information security program was generally
compliant with the FISMA requirements.
Specifically, TIGTA determined that the following
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 September 28, 2012


 MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE INSPECTOR GENERAL
                DEPARTMENT OF THE TREASURY


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Treasury Inspector General for Tax Administration – Federal
                                 Information Security Management Act Report for Fiscal Year 2012
                                 (Audit # 201220001)

 This report presents the results of the Treasury Inspector General for Tax Administration’s
 Federal Information Security Management Act1 evaluation for Fiscal Year 2012. The Act
 requires the Offices of Inspectors General to perform an annual independent evaluation of each
 Federal agency’s information security program and practices. This report reflects our
 independent evaluation of the Internal Revenue Service’s (IRS) information security program
 and practices for the period under review.
 The report was forwarded to the Treasury Inspector General for consolidation into a report issued
 to the Department of the Treasury Chief Information Officer. Copies of this report are also being
 sent to the IRS managers affected by the report results.
 Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services), at (202) 622-5894.




 1
     Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
                      Treasury Inspector General for Tax Administration – Federal
                   Information Security Management Act Report for Fiscal Year 2012




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          The Internal Revenue Service’s Information Security Program
          Generally Complies With the Federal Information Security
          Management Act, but Improvements Are Needed ....................................... Page 2

Appendices
          Appendix I – Fiscal Year 2012 Reporting Metrics ....................................... Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 30
          Appendix III – Report Distribution List ....................................................... Page 31
          Appendix IV – Treasury Inspector General for Tax Administration
          Information Technology Security-Related Reports Issued During the
          Fiscal Year 2012 Evaluation Period ............................................................. Page 32
          Appendix V – Glossary of Terms ................................................................. Page 33
             Treasury Inspector General for Tax Administration – Federal
          Information Security Management Act Report for Fiscal Year 2012




                            Abbreviations

AP                   Administrative Priority
Base                 Baseline Question
CIO                  Chief Information Officer
CISO                 Chief Information Security Officer
CM                   Continuous Monitoring
CMWG                 Continuous Monitoring Working Group
DAA                  Designated Accrediting Authority
DHS                  Department of Homeland Security
DMZ                  Demilitarized Zone
ECMS                 Enterprise Configuration Management System
FCD1                 Federal Continuity Directive 1
FDCC                 Federal Desktop Core Configuration
FISMA                Federal Information Security Management Act
FY                   Fiscal Year
GAO                  Government Accountability Office
GSS                  General Support System
HSPD-12              Homeland Security Presidential Directive-12
IP                   Internet Protocol
IRS                  Internal Revenue Service
IT                   Information Technology
KFM                  Key FISMA Metric
MOU                  Memorandum of Understanding
             Treasury Inspector General for Tax Administration – Federal
          Information Security Management Act Report for Fiscal Year 2012



NIST                 National Institute of Standards and Technology
OIG                  Office of the Inspector General
OMB                  Office of Management and Budget
PIV                  Personal Identity Verification
POA&M                Plan of Action and Milestones
SCAP                 Security Content Automation Protocol
SP                   Special Publication
TIGTA                Treasury Inspector General for Tax Administration
US-CERT              United States Computer Emergency Response Team
USG                  U.S. Government
USGCB                United States Government Configuration Baseline
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012




                                           Background

The Internal Revenue Service (IRS) collects and maintains a significant amount of personal and
financial information on each taxpayer. The IRS also relies extensively on computerized
systems to support its responsibilities in collecting taxes, processing tax returns, and enforcing
Federal tax laws. As custodians of taxpayer information, the IRS has an obligation to protect the
confidentiality of this sensitive information against unauthorized access or loss. Otherwise,
taxpayers could be exposed to invasion of privacy and financial loss or damage from identity
theft or other financial crimes.
The Federal Information Security Management Act (FISMA) of 20021 was enacted to strengthen
the security of information and systems within Federal agencies. Under the FISMA, agency
heads are responsible for providing information security protections commensurate with the risk
and magnitude of harm resulting from the unauthorized access, use, disclosure, disruption,
modification, or destruction of information and information systems. Agency heads are also
responsible for complying with the requirements of the FISMA, related Office of Management
and Budget (OMB) policies, and National Institute of Standards and Technology (NIST)
procedures, standards, and guidelines.
As part of this legislation, each Federal Government agency is required to report annually to the
OMB on the adequacy and effectiveness of its information security program and practices and
compliance with the FISMA. In addition, the FISMA requires the agencies to have an annual
independent evaluation of their information security programs and practices performed by the
agency Inspector General or an independent external auditor as determined by the Inspector
General.2 The OMB uses the information from the agencies and independent evaluations in its
FISMA oversight capacity to assess agency-specific and Federal Government-wide security
performance, develop its annual security report to Congress, and assist in improving and
maintaining adequate agency security performance.
We based our evaluation of the IRS on the Department of Homeland Security’s (DHS) Fiscal
Year (FY) 2012 Inspector General FISMA Reporting Metrics issued on March 6, 2012. These
reporting metrics specified the security program areas for the Inspectors General to evaluate and
listed specific attributes that each security program area should include, as shown in Appendix I.
Major contributors to this report are listed in Appendix II.




1
 Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
2
 The FISMA evaluation period for the Department of the Treasury is July 1, 2011, through June 30, 2012. All
subsequent references to 2012 refer to the FISMA evaluation period.
                                                                                                        Page 1
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




                                Results of Review

The Internal Revenue Service’s Information Security Program
Generally Complies With the Federal Information Security
Management Act, but Improvements Are Needed
The DHS FY 2012 Inspector General FISMA Reporting Metrics specified 11 information
security program areas and a total of 96 attributes within the 11 areas for the Inspectors General
to evaluate and determine whether agencies had established and maintained an information
security program that was generally consistent with the NIST and OMB’s FISMA requirements.
The 11 information security program areas are as follows:
      Continuous monitoring management.
      Configuration management.
      Identity and access management.
      Incident response and reporting.
      Risk management.
      Security training.
      Plan of action and milestones.
      Remote access management.
      Contingency planning.
      Contractor systems.
      Security capital planning.
To complete our FISMA evaluation, we reviewed a representative sample of 10 major IRS
information systems. For each system in the sample, we assessed the quality of the security
assessment and authorization process, the annual testing of controls for continuous monitoring,
the testing of information technology contingency plans, and the quality of the plan of action and
milestones process. In addition, we evaluated the IRS’s processes over configuration
management, identity and access management, incident response and reporting, security training,
remote access management, contractor systems, and security capital planning. During the
FY 2012 FISMA evaluation period, we also completed nine audits, as shown in Appendix IV,
which evaluated various aspects of information security at the IRS. We considered the results of
these audits in our evaluation, as well as results from ongoing audits for which draft reports were
issued to the IRS by August 10, 2012.

                                                                                            Page 2
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



Based on our FY 2012 FISMA evaluation, we determined that the IRS’s information security
program was compliant with the FISMA requirements and met the level of performance for eight
of the 11 program areas as specified by the DHS’s FY 2012 Inspector General FISMA Reporting
Metrics. However, we also noted that improvements were needed in the remaining three
program areas. We determined that these three program areas did not meet the level of
performance specified by the DHS’s FY 2012 Inspector General FISMA Reporting Metrics as a
result of specific program attributes that were missing or other conditions that we identified
which reduced program effectiveness. The three areas needing improvement are as follows:
      Configuration management.
      Identity and access management.
      Security training.

Configuration Management
Configuration management comprises a collection of activities focused on establishing and
maintaining the integrity of products and systems through control of the processes for
initializing, changing, and monitoring the configurations of those products and systems.
Security-focused configuration management is the management and control of secure
configurations for an information system to enable security and facilitate the management of
risk. Effective configuration management of information systems requires the integration of the
management of secure configurations into the organizational configuration management process
or processes.
In order to secure both software and hardware, agencies must develop and implement standard
configuration baselines that prevent or minimize exploitable system vulnerabilities. The OMB
requires all Windows 7, XP, and Vista workstations to conform to the U.S. Government
Configuration Baseline. Furthermore, the NIST has created a repository of secure baselines for a
wide variety of operating systems and devices. Agencies must also develop and implement
sufficient patch management processes, which is a component of configuration management.
Any significant delays in patching software with critical vulnerabilities provide ample
opportunity for persistent attackers to gain control over the vulnerable computers and get access
to the sensitive data they may contain.
The IRS has not fully implemented the following seven configuration management attributes
specified by the DHS metrics:
    2.1.3. Assessing for compliance with baseline configurations.
    2.1.5. For Windows-based components, Federal Desktop Core Configuration (FDCC)/U.S.
           Government Configuration Baseline (USGCB) secure configuration settings fully
           implemented and any deviations from FDCC/USGCB baseline settings fully
           documented.

                                                                                          Page 3
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2012



     2.1.6. Documented proposed or actual changes to hardware and software configurations.
     2.1.7. Process for timely and secure installation of software patches.
     2.1.8. Software assessing (scanning) capabilities are fully implemented.
     2.1.9. Configuration-related vulnerabilities, including scan findings, have been remediated
            in a timely manner, as specified in organization policy or standards.
    2.1.10. Patch management process is fully developed, as specified in organization policy or
            standards.
2.1.3. Assessing for compliance with baseline configurations.
The IRS is still in the process of implementing tools compliant with the Security Content
Automation Protocol (SCAP)3 to perform security configuration assessments for Windows and
UNIX systems. Agencies are required to use SCAP-validated tools, as specified by the NIST, to
continuously monitor the security configurations of their information technology assets as part of
compliance with the FISMA.
In April 2008, the IRS formally kicked off an initiative to implement the Security Compliance
Posture Monitoring and Reporting tool, an enterprise tool that would utilize the NIST-defined
protocol. When in production, the Security Compliance Posture Monitoring and Reporting tool
would provide the IRS with the ability to monitor, measure, and manage FISMA security
compliance of its Windows and UNIX servers enterprise-wide. Also, it would allow the IRS to
retire the Windows and UNIX policy checker programs, which are not SCAP-compliant.
However, the IRS has not yet rolled out the Security Compliance Posture Monitoring and
Reporting tool.
Also, in September 2011, the Treasury Inspector General for Tax Administration (TIGTA)
reported4 that automated security configuration scans of IRS mainframe databases were not
conducted. The Internal Revenue Manual required monthly automated security configuration
scans of all operating and database systems. However, the mainframe policy checker does not
test configuration compliance for databases that reside on mainframes. The IRS agreed to
implement automated security configuration scanning on mainframe databases by
March 1, 2013.


3
  The SCAP is a suite of specifications that standardize the format and nomenclature by which security software
products communicate software flaw and security configuration information. SCAP is designed to organize,
express, and measure security-related information in standardized ways, as well as related reference data, such as
identifiers for post-compilation software flaws and security configuration issues. SCAP can be used to maintain the
security of enterprise systems, such as automatically verifying the installation of patches, checking system security
configuration settings, and examining systems for signs of compromise.
4
  TIGTA Ref. No. 2011-20-099, The Mainframe Databases Reviewed Met Security Requirements; However,
Automated Security Scans Were Not Performed (Sept. 2011).
                                                                                                             Page 4
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



The IRS has deployed a SCAP-compliant tool (called the SCAP Compliance Checker) for
monitoring Federal Desktop Core Configuration compliance on workstations. However, since
February 2010, the IRS has been in the process of implementing additional tools for monitoring
workstation compliance, called the Treasury Enhanced Security Initiative. The IRS believes the
Treasury Enhanced Security Initiative is needed because of the features it has that the SCAP
Compliance Checker does not have, including its ability to:
      Discover all assets on the IRS network.
      Identify rogue computers.
      Monitor administrative access privileges.
      Identify noncompliant security configurations for specific workstations.
      Prioritize highest risk systems for timely remediation.
      Automate remediation of some misconfigurations.
However, the Treasury Enhanced Security Initiative has experienced several delays due to the
need for infrastructure upgrades and additional server resources, the IRS placing higher priorities
on development of other systems, and filing season moratoriums.
2.1.5. For Windows-based components, FDCC/USGCB secure configuration settings fully
implemented and any deviations from FDCC/USGCB baseline settings fully documented.
The IRS has not yet fully documented Windows 7 FDCC/USGCB deviations. The User and
Network Services organization indicated that it is currently working with stakeholders to identify
and document all Windows 7 settings that do not comply with the Internal Revenue Manual or
USGCB.
2.1.6. Documented proposed or actual changes to hardware and software configurations.
The IRS had not yet fully implemented configuration and change management controls to ensure
that proposed or actual changes to hardware and software configurations are documented.
During FY 2012, the Enterprise Services organization was in the process of implementing the
Enterprise Configuration Management System (ECMS) to provide an enterprise solution for
configuration and change management. The goal of the ECMS is to provide the IRS the
capability to automate the configuration management process, enhance and improve the current
change management process, provide a platform for the consolidation of change boards, provide
a detailed change analysis capability, and support the adoption of robust configuration
management and validation.
The ECMS briefing from the Enterprise Services Configuration and Change Management office
cites a number of issues with IRS configuration and change management processes, including:


                                                                                            Page 5
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



       A number of organizational change management processes are in place, without a clear
        understanding on how they link back to the “umbrella” configuration and change
        management standards.
            o Duplicative steps exist in many of the change management processes.
            o Inconsistent integration/coordination exists across processes.
       There is limited enforcement of configuration and change management standards to date.
       Multiple configuration control boards are in place, without a clear definition of what the
        hand-offs are between them.
       Configuration items do not always have an owner.
       No clear process hand-offs are defined between configuration management, change
        management, release management, and other service management processes.
       Organizations do not always have a clear understanding of Configuration and Change
        Management office staff roles.
       Many organizations do not have a clear understanding of what configuration and change
        management are and what steps they should be following to perform the related
        processes.
       Configuration and change management standards applied to organizationally owned tools
        are sometimes “lost in translation.”
       The level of effort required across varied tools and procedures involved in performing
        configuration management activities is not clear, making it difficult to assign resources. 
In July 2012, the Enterprise Services organization deployed the initial release of the ECMS. The
ECMS includes a configuration item discovery tool, called the Discovery and Dependency
Mapping Advanced tool, for the purpose of establishing a central repository of configuration
items for which changes to configuration settings will need to be managed. The Enterprise
Services organization plans for the full implementation of the ECMS to occur in FY 2014.
2.1.7. Process for timely and secure installation of software patches.
During the FY 2012 FISMA evaluation period, the TIGTA concluded fieldwork on an audit to
evaluate the IRS’s enterprise-wide patch management process.5 The TIGTA identified that
critical patches continue to be missing or are installed in an untimely manner. The IRS’s own
patch monitoring reports continue to report unpatched or untimely patched computers. For
example, an IRS-wide patch monitoring report for Windows servers, called the Associate Chief

5
 TIGTA, Ref. No. 2012-20-012, An Enterprise Approach Is Needed to Address the Security Risk of Unpatched
Computers (Sep. 2012).
                                                                                                     Page 6
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



Information Officer Monthly Critical Patch Report, showed the IRS’s overall patch compliance
rate for critical patches averaged 88 percent in March 2012, ranging from a low of 63 percent to
a high of 88 percent for the six-month period of October 2011 to March 2012. The March 2012
report showed that 7,329 potential vulnerabilities remain on IRS servers because 23 critical
patches had not been installed on servers that need them; some of these patches had been
released as far back as April 2011. These vulnerabilities could potentially be exploited to gain
unauthorized access to information, disrupt operations, or launch attacks against other systems.
In addition, the IRS informed us that patching is still manual for the majority of its UNIX
operating systems and is not in accordance with patch frequencies required by the Internal
Revenue Manual. The Enterprise Operations organization is currently testing a process for
automating patching on its UNIX servers.
IRS patch management policy did not provide clear expectations for when patches must be
installed. In addition, the IRS has no mechanism to enforce timely patching or to hold system
owners accountable for ensuring that their systems are timely patched or that they formally
accept the risk of not patching systems timely. By not installing security patches in a timely
fashion, the IRS increases the risk that known vulnerabilities in its systems may be exploited.
In March 2012, the Government Accountability Office (GAO) also reported6 that the IRS did not
always apply critical patches or ensure versions of its operating system were still supported by
the vendor.
2.1.8. Software assessing (scanning) capabilities are fully implemented.
The IRS’s software assessing (scanning) capabilities are not yet fully implemented. The IRS
Organizational Common Controls Security Plan, Version 1, dated June 28, 2012, stated that the
required vulnerability scanning control was not in place at the IRS organizational level and that
the IRS Cybersecurity organization is still in the process of coordinating with information system
owners to implement vulnerability scanning enterprise-wide. It also stated that, for vulnerability
scans the IRS did conduct, analysis of the scans were not being performed by the system owners.
In addition, it stated that the IRS has not yet deployed an automated mechanism to detect the
presence of unauthorized software on IRS information systems.
In June 2012, the TIGTA reported7 that the IRS had not implemented or enforced
enterprise-wide procedures for monitoring and remediating weaknesses reported by nCircle
scans. These scans help to identify what details about the information system are discoverable
by adversaries and provide an associated risk level/score. During FY 2012, the IRS
Cybersecurity organization was in the process of developing enterprise-wide standard operating


6
  GAO, GAO-12-393, IRS Needs to Further Enhance Internal Control Over Financial Reporting and Taxpayer
Data (Mar. 2012).
7
  TIGTA, Ref. No. 2012-20-063, Enterprise-Level Oversight Is Needed to Ensure Adherence to Windows Server
Security Policies (June 2012).
                                                                                                     Page 7
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



procedures for reviewing and analyzing the results of vulnerability scans and educating system
owners on how to prioritize and resolve the identified weaknesses.
In September 2011, the TIGTA reported8 that four individuals had installed and used personal
unauthorized wireless devices on their laptops to connect to the IRS network. The TIGTA
recommended that the IRS implement automated nationwide network scans for unauthorized
wireless activity, devices, and software and improve processes to handle incidents of
noncompliance with IRS security policy so that when unauthorized wireless activity is identified,
subsequent investigations and disciplinary actions are effective. The IRS plans to complete the
corrective action by September 28, 2012.
Additionally, our review of 10 sample systems’ System Security Plans revealed that vulnerability
scans were not being conducted in accordance with the IRS’s defined frequency and process for
the three General Support System’s (GSS) in our sample.
2.1.9. Configuration-related vulnerabilities, including scan findings, have been remediated
in a timely manner, as specified in organization policy or standards.
In June 2012, the TIGTA reported9 that monthly scanning results were not consistently being
used to correct improper settings on Windows servers in a timely manner; rather, security
vulnerabilities of high, medium, and low risk levels were repeatedly reported on Windows Policy
Checker reports for two or three consecutive months. During FY 2012, the Cybersecurity
organization issued standard operating procedures for the monitoring and remediation of
weaknesses reported by the Windows server configuration scans to all IRS staff administering
Windows servers. The document stated that the Cybersecurity organization staff will work with
the system administrators, application owners, and project offices to maintain a 100-percent
compliance level on all Windows servers across all IRS organizations.
2.1.10. Patch management process is fully developed, as specified in organization policy or
standards.
During the FY 2012 FISMA evaluation period, the TIGTA concluded fieldwork on an audit to
evaluate the IRS’s enterprise-wide patch management process.10 The TIGTA identified that,
although IRS policy requires the IRS to establish an enterprise-level group with responsibility for
patch management, no enterprise-level group exists. Due to the lack of enterprise-level oversight
and leadership, the IRS has not yet implemented key elements of its patch management policies
and procedures that are needed to ensure all IRS systems are patched timely and operating


8
  TIGTA, Ref. No. 2011-20-101, Security Controls Over Wireless Technology Were Generally in Place; However,
Further Actions Can Improve Security (Sept. 2011).
9
  TIGTA, Ref. No. 2012-20-063, Enterprise-Level Oversight Is Needed to Ensure Adherence to Windows Server
Security Policies (June 2012).
10
   TIGTA, Ref. No. 2012-20-012, An Enterprise Approach Is Needed to Address the Security Risk of Unpatched
Computers (Sep. 2012).
                                                                                                     Page 8
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



securely. Specifically, the IRS has not:
      Completed the implementation of an accurate and complete inventory of its information
       technology assets, which is critical for ensuring that patches are identified and applied
       timely for all types of operating systems and software used within its environment.
      Implemented patch policy and monitoring processes to ensure patches are applied timely
       enterprise-wide.
      Implemented controls to ensure that unsupported operating systems are not putting the
       IRS at risk.
IRS processes to monitor the installation of required patches need improvement. The IRS’s
current monitoring processes are not sufficient to ensure that vulnerabilities resulting from
unpatched systems are successfully and timely remediated. The IRS depends on the various IRS
organizations that manage their own computers to frequently self-report patching data from their
organization-level patch monitoring reports. This effort is labor intensive and results in
incomplete and unverified patch data. For example, in March 2012, the IRS Information
Technology organization reported that it had not received percentage data for 14 consecutive
months from non-Information Technology managed Windows workstations needing critical
patches, which it needed to track patch metrics in its Information Technology Internal
Dashboard. Further, the IRS had not established patch performance metrics in terms of setting
compliance rate goals and measuring them on a monthly basis to ensure IRS organizations are
complying with security patch policy.
2.2. Please provide any additional information on the effectiveness of the organization’s
configuration management program that was not noted in the questions above.
To achieve FISMA-compliant configuration management, the IRS is in the process of
implementing a number of tools to automate tasks, that when done manually, are extremely
time-consuming and error-prone. However, we are concerned the IRS is not ensuring that it is
avoiding tool redundancy and, therefore, excess cost or that it will be making the most efficient
use of the data collections.
Tools or initiatives that the IRS already implemented or are in progress to improve its security
posture include Business DNA (asset discovery), nCircle (vulnerability scanning), Security
Compliance Posture Monitoring and Reporting (server configuration management), Treasury
Enhanced Security Initiative (workstation configuration management), Altiris (Windows server
patching), Guardium (database scanning), Knowledge Incident/Problem Service Asset
Management (asset inventory), CiscoWorks (network management), Tivoli (older asset
management tool), and a central repository for warehousing and integrating the collected data.
The Cybersecurity organization has prepared an Information Technology Security Controls
Tools Strategy for planning how all of this data will be organized and combined to provide
near-real-time enterprise security intelligence for decision making.

                                                                                            Page 9
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2012



As mentioned above, the Enterprise Services organization is also implementing a configuration
and change management tool, called the ECMS. This solution is comprised of a number of
commercial off-the-shelf products that include a configuration item discovery tool (the
Discovery and Dependency Mapping Advanced tool), a central repository of configuration items
and related components, change management analysis, and other tools for monitoring and
maintaining configuration compliance. The Enterprise Services organization stated that until the
ECMS is implemented, the IRS will continue to lack the capability to effectively implement
configuration and change management.
We believe the IRS should ensure that data collected by its various tools and organizations will
be efficiently utilized and that the IRS is not developing duplicative configuration management
processes or products. For example, our discussions with the Cybersecurity and Enterprise
Services organizations revealed that an approach for integrating the configuration management
data collected by both organizations has not yet been formulated.

Identity and Access Management
Proper identity and access management ensures that users and devices are properly authorized to
access information or information systems. Users and devices must be authenticated to ensure
that they are who they identify themselves to be. In most systems, a user name and password
serve as the primary means of authentication, while the system enforces authorized access rules
established by the system administrator. To ensure that only authorized users and devices have
access to a system, policy and procedures must be in place for the creation, distribution,
maintenance, and eventual termination of accounts. The use of Personal Identity Verification
(PIV) cards by all agencies, required by Homeland Security Presidential Directive-12
(HSPD-12),11 is a major component of a secure, Government-wide account and identity
management system.
The IRS has not fully implemented the following seven identity and access management
attributes specified by the DHS metrics:
     3.1.4. If multifactor authentication is in use, it is linked to the organization’s PIV program,
            where appropriate.
     3.1.5. Organization has adequately planned for implementation of PIV for logical access in
            accordance with government policies.



11
  On August 27, 2004, President Bush signed HSPD-12, Policy for a Common Identification Standard for Federal
Employees and Contractors. This directive established a new standard for issuing and maintaining identification
badges for Federal employees and contractors entering Government facilities and accessing computer systems. The
intent was to improve security, increase Government efficiency, reduce identity fraud, and protect personal privacy.
Agencies are required to use PIV badges (also referred to as SmartID cards) to access computer systems (logical
access).
                                                                                                           Page 10
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



     3.1.6. Ensures that the users are granted access based on needs and separation of duties
            principles.
     3.1.7. Identifies devices with Internet Protocol addresses that are attached to the network
            and distinguishes these devices from users.
     3.1.8. Identifies all user and nonuser accounts (refers to user accounts that are on a system.)
     3.1.9. Ensures that accounts are terminated or deactivated once access is no longer required.
     3.1.10. Identifies and controls use of shared accounts.
3.1.4. If multifactor authentication is in use, it is linked to the organization’s PIV program,
where appropriate.
During the FY 2012 FISMA evaluation period, the TIGTA concluded fieldwork on an audit to
evaluate the implementation and security of the IRS’s two-factor authentication for logical
(system) access.12 The IRS has not deployed multifactor authentication via the use of an
HSPD-12 PIV card for all users for network and local access to nonprivileged or privileged
accounts as required by Federal mandate. Therefore, the IRS’s multifactor authentication is not
yet linked to its PIV program.
3.1.5. Organization has adequately planned for implementation of PIV for logical access in
accordance with Government policies.
The IRS has experienced significant delays in deploying PIV cards for logical access, which
reveals the IRS’s inadequate planning efforts. The Federal Government mandated that agencies
implement PIV cards to access computer systems in August 2004. The IRS originally planned to
complete the deployment by September 2011. The deployment is now planned to be completed
by July 2013, but various issues threaten further delays, including:
        The inability of the IRS to require its employees to use their PIV cards for logical access
         to the network because it did not negotiate mandatory use of the cards with the National
         Treasury Employees Union.
        Resolving PIV card deployment for system administrators, who currently require separate
         identities to perform administrator services on computer systems.
        The large number (1,888) of IRS applications that are not yet PIV card-enabled and the
         lack of resources to change these existing applications.




12
  TIGTA, Ref. No. 2012-20-115, Using SmartID Cards to Access Computer Systems Is Taking Longer Than
Expected (Sept. 2012).
                                                                                                 Page 11
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2012



3.1.6. Ensures that the users are granted access based on needs and separation of duties
principles.
Two of the three GSSs in our sample did not have the controls in place to ensure users are
granted access based on needs or to enforce separation of duties. Applications residing on GSSs
often rely on the GSS to implement these controls; therefore, the applications residing on these
GSSs would also inherit these weaknesses.
The most recent security control assessment for one of the two GSSs that did not have these
controls in place stated that accounts are not managed, enforced, separated, or deployed with
least privilege in accordance with IRS policy requirements for all GSS components. Also, the
most recent security control assessment for the other GSS found controls for granting access
based on needs and for separation of duties were not implemented. For example, the operating
system administrator could perform database administrator functions.
In addition, the GAO reported in March 201213 that IRS authorization controls were not always
functioning as intended and access authorization policies were not effectively implemented. For
example, systems used to process tax and financial information did not fully prevent access by
unauthorized users or excessive levels of access for authorized users. In addition, the IRS’s
compliance checks revealed unauthorized access to another system. During its monthly
compliance check in August 2011, the IRS identified 16 users who had been granted access to
the procurement system without receiving approval from the IRS’s authorization system. Also,
the data in a shared work area used to support accounting operations were fully accessible by
network administration staff although they did not need such access.
3.1.7. Identifies devices with Internet Protocol addresses that are attached to the network
and distinguishes these devices from users.
The IRS informed us that Business DNA will be its enterprise asset discovery tool for identifying
devices on its network. Business DNA network scans can identify devices with Internet Protocol
addresses that are attached to the network and distinguish these devices from users. However,
the full implementation of the Business DNA tool is not expected to be completed until
September 2012. Therefore, the IRS has not yet fully implemented this attribute.
We also found that one of our three sample GSSs did not have device identification and
authentication in place. It did not uniquely identify and authenticate devices or users before
establishing a connection. Also, its firewalls did not use the Terminal Access Controller Access
Control System14 to authenticate organization users or devices. Rather, these firewalls were
accessed via a shared administrator account.


13
   GAO, GAO-12-393, IRS Needs to Further Enhance Internal Control Over Financial Reporting and Taxpayer
Data (Mar. 2012).
14
   An enterprise access control security system that provides device/network access authentication, authorization,
and accounting.
                                                                                                            Page 12
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



3.1.8. Identifies all user and nonuser accounts.
No information was provided to determine how the IRS identifies all user and nonuser accounts.
3.1.9. Ensures that accounts are terminated or deactivated once access is no longer
required.
Three of our 10 sample systems (two GSSs and one application) did not have controls in place to
ensure accounts are terminated or deactivated once access is no longer needed. The most recent
security control assessment for one GSS found:
        The system did not disable inactive accounts after 120 days of inactivity and did not
         employ automated mechanisms to audit account creation, modification, disabling, and
         termination actions.
        Evidence was not provided to ensure system accounts are reviewed at least annually.
        The system was not configured to notify appropriate individuals when accounts were
         modified.
        Evidence was not provided to ensure system accounts were reviewed at least annually
         and automated mechanisms were employed to support system account management
         functions.
        No automated mechanisms existed to support information system account management
         functions.
        Inactive accounts were not automatically disabled.
For the other GSS, the most recent security control assessment found:
        Accounts were not automatically disabled.
        The log files did not contain any evidence of logging the account creation, modification,
         disabling, and termination actions of a user account.
For the one application, its most recent security control assessment found that it did not disable
accounts after 45 days or remove accounts after 90 days of inactivity.
Further, the GAO reported in March 201215 that the IRS had not taken actions to remove active
application accounts in a timely manner for employees who had separated or no longer needed
access.




15
 GAO, GAO-12-393, IRS Needs to Further Enhance Internal Control Over Financial Reporting and Taxpayer
Data (Mar. 2012).
                                                                                                Page 13
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



3.1.10. Identifies and controls use of shared accounts.
One of the GSSs in our sample was not adequately identifying and controlling use of shared
accounts. The most recent security control assessment found that the administrative account for
this GSS was shared. For example, the operating system administrator had the ability to “switch
user” into Oracle using the “root” password. This login process is not uniquely linked to any one
individual. Rather, this access is “shared” among the operating system administrators. Sharing
this account in this manner allows fully privileged actions to be taken on the system without any
accountability. In addition, passwords were stored and transmitted in plaintext.
Also, in June 2012, the TIGTA reported16 that administrative accounts on Windows servers were
not being properly safeguarded in accordance with IRS policy. Specifically, administrators in
two IRS organizations were using the built-in system administrator accounts to perform normal
administrative duties rather than only in emergencies as required by IRS policy. Seven
administrators in one organization and 14 administrators in the other were sharing the password
to the built-in accounts and were using these accounts for administrative tasks rather than using
their unique role-based administrator accounts. Consequently, individual accountability was lost
as to by whom and for what purposes these full-privileged accounts were being accessed.

Security Training
The FISMA requires all Government personnel and contractors to complete annual security
awareness training that provides instruction on threats to data security and responsibilities for
information protection. It also requires specialized training for personnel and contractors with
significant security responsibilities. Without adequate security training programs, agencies
cannot provide appropriate training or ensure that all personnel receive the required training.
The IRS had not fully implemented the following security training attribute specified by the DHS
metrics: 6.1.5. Identification and tracking of the status of specialized training for all personnel
(including employees, contractors, and other organization users) with significant information
security responsibilities that require specialized training.
6.1.5. Identification and tracking of the status of specialized training for all personnel
(including employees, contractors, and other organization users) with significant
information security responsibilities that require specialized training.
The DHS provided clarification for this attribute as it relates to contractors, stating that agencies
should be providing and tracking completion of specialized training for contractors just as they
would for Federal employees. The specialized training requirement is based on the role of the
contractor, not just on contractor status. Whoever holds a significant security role needs to
receive specialized role-based training.

16
  TIGTA, Ref. No. 2012-20-063, Enterprise-Level Oversight Is Needed to Ensure Adherence to Windows Server
Security Policies (June 2012).
                                                                                                   Page 14
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



The IRS has not fully implemented identification and tracking of the status of specialized
role-based training for contractors. However, the IRS stated it is making plans to implement
such tracking by October 15, 2012. The Contractor Security Management office in the
Agency-Wide Shared Services organization is currently leading efforts to modify its contractor
tracking system to allow the identification of those contractors with significant security
responsibilities, with subsequent plans to implement a process to monitor and track completion
of contractor specialized training. Once identified, the IRS would rely on the contractors to
provide and self-report the completion of their required specialized training hours. Preliminary
IRS results indicated that 919 such contractors were employed during the FISMA FY 2012
reporting period, with only 99 of those having confirmed that they completed the required
training.
The IRS did not agree that it should provide specialized training for contractors and supported its
position by citing the U.S. Office of Personnel Management’s Training Policy Handbook, which
states:
       Since contractors are selected for their expertise in a subject area, contractors may only
       be trained in skills they are not required to bring to the job. Contractors may be trained
       in rules, practices, procedures, and/or systems that are unique to the employing agency
       and essential to the performance of the contractor’s assigned duties, such as agency
       computer security procedures. However, the authority for training of contractors is not
       in training law. It is in the authority to administer contracts. Training of contractors is
       subject to the decision of the chief contracting official.
The IRS stated that to require it to provide, track, and report specialized training completions for
contractors would present significant challenges, including requiring thousands of contract
language modifications before it could enforce this requirement for contract employees.




                                                                                            Page 15
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



                                                                                           Appendix I

                  Fiscal Year 2012 Reporting Metrics

Presented below is the list of reporting metrics questions and information as detailed in the
Fiscal Year 2012 Inspector General Federal Information Security Management Act (FISMA)
Reporting Metrics.1 The list is presented in its entirety, along with the accompanying Purpose
and Use information. Following each metric is a notation identifying each individual question as
an Administration Priority (AP), a Key FISMA Metric (KFM), or a Baseline Question (Base).
Many abbreviations in this list are used as presented in the original document and are not defined
therein. However, we have provided the definitions in the Abbreviations page after the Table of
Contents of this report.

1.      CONTINUOUS	MONITORING	MANAGEMENT		
        1.1.    Has the organization established an enterprise‐wide continuous monitoring program 
                that assesses the security state of information systems that is consistent with FISMA 
                requirements, OMB policy, and applicable NIST guidelines?  If yes, besides the 
                improvement opportunities that may have been identified by the OIG, does the 
                program include the following attributes: 
                1.1.1. Documented policies and procedures for continuous monitoring (NIST 800‐53: 
                       CA‐7). (AP) 
                1.1.2. Documented strategy and plans for continuous monitoring (NIST 800‐37 Rev. 1, 
                       Appendix G). (AP) 
                1.1.3. Ongoing assessments of security controls (system‐specific, hybrid, and common) 
                         that have been performed based on the approved continuous monitoring plans 
                         (NIST 800‐53, NIST 800‐53A). (AP) 
                1.1.4. Provides authorizing officials and other key system officials with security status 
                         reports covering updates to security plans and security assessment reports as 
                         well as POA&M additions and updates, with the frequency defined in the 
                         strategy and/or plans (NIST 800‐53, NIST 800‐53A). (AP) 




1
 U.S. Department of Homeland Security, National Cyber Security Division, Fiscal Year 2012 Inspector General
Federal Information Security Management Act Reporting Metrics, pp. 6–17 (Mar. 2012). The FISMA is encoded in
Title III of the E-Government Act of 2002; Pub. L. No. 107-374, 116 Stat. 2899.
                                                                                                   Page 16
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



         1.2.    Please provide any additional information on the effectiveness of the organization’s 
                 continuous monitoring management program that was not noted in the questions 
                 above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        The Federal Continuous Monitoring Working Group (CMWG) has determined that continuous 
         monitoring (CM) of configurations is one of the first areas where CM capabilities need to be 
         developed.  This applies to both operating systems and widely used applications.  
        Even with a completely hardened system, exploitation may still occur due to zero‐day 
         vulnerabilities.  However, this forces attackers to elevate their sophistication for successful 
         attacks.  
        Rather, a robust continuous monitoring solution will be able to provide additional visibility for 
         organizations to identify signs of compromise, though no single indicator may identify a 
         definitive incident.  

2.       CONFIGURATION	MANAGEMENT		
         2.1.    Has the organization established a security configuration management program that is 
                 consistent with FISMA requirements, OMB policy, and applicable NIST guidelines?  If 
                 yes, besides the improvement opportunities that may have been identified by the OIG, 
                 does the program include the following attributes: 
                 2.1.1. Documented policies and procedures for configuration management. (Base) 
                 2.1.2. Standard baseline configurations defined. (Base) 
                 2.1.3. Assessing for compliance with baseline configurations. (Base) 
                 2.1.4. Process for timely, as specified in organization policy or standards, remediation 
                        of scan result deviations. (Base) 
                 2.1.5. For Windows‐based components, FDCC/USGCB secure configuration settings 
                         fully implemented and any deviations from FDCC/USGCB baseline settings fully 
                         documented. (Base) 
                 2.1.6. Documented proposed or actual changes to hardware and software 
                        configurations. (Base) 
                 2.1.7. Process for timely and secure installation of software patches. (Base) 
                 2.1.8. Software assessing (scanning) capabilities are fully implemented (NIST 800‐53: 
                        RA‐5, SI‐2). (Base) 


                                                                                                     Page 17
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



                2.1.9. Configuration‐related vulnerabilities, including scan findings, have been 
                        remediated in a timely manner, as specified in organization policy or standards. 
                        (NIST 800‐53: CM‐4, CM‐6, RA‐5, SI‐2). (Base) 
                2.1.10. Patch management process is fully developed, as specified in organization policy 
                        or standards. (NIST 800‐53: CM‐3, SI‐2). (Base) 
         2.2.   Please provide any additional information on the effectiveness of the organization’s 
                configuration management program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        A key goal of configuration management is to make assets harder to exploit through better 
         configuration.  
        A key assumption is that configuration management covers the universe of assets to which 
         other controls need to be applied (controls that are defined under asset management).  
        To have a capable configuration management program, the configuration management 
         capability needs to be:  
            o   Relatively complete, covering enough of the software base to significantly increase the 
                effort required for a successful attack.  
            o   Relatively timely, being able to find and fix configuration deviations faster than they can 
                be exploited.  

3.       IDENTITY	AND	ACCESS	MANAGEMENT 
         3.1.   Has the organization established an identity and access management program that is 
                consistent with FISMA requirements, OMB policy, and applicable NIST guidelines and 
                identifies users and network devices?  If yes, besides the improvement opportunities 
                that have been identified by the OIG, does the program include the following attributes: 
                3.1.1. Documented policies and procedures for account and identity management 
                       (NIST 800‐53: AC‐1). (Base) 
                3.1.2. Identifies all users, including Federal employees, contractors, and others who 
                       access organization systems (NIST 800‐53, AC‐2). (Base) 
                3.1.3. Identifies when special access requirements (e.g., multifactor authentication) 
                       are necessary. (Base) 
                3.1.4. If multifactor authentication is in use, it is linked to the organization’s PIV 
                       program, where appropriate (NIST 800‐53, IA‐2). (KFM) 


                                                                                                     Page 18
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2012



                3.1.5. Organization has adequately planned for implementation of PIV for logical 
                        access in accordance with Government policies (HSPD‐12, FIPS 201, 
                        OMB M‐05‐24, OMB M‐07‐06, OMB M‐08‐01, OMB M‐11‐11). (AP) 
                3.1.6. Ensures that the users are granted access based on needs and separation of 
                       duties principles. (Base) 
                3.1.7. Identifies devices with IP addresses that are attached to the network and 
                        distinguishes these devices from users.  (For example:  IP phones, faxes, and 
                        printers are examples of devices attached to the network that are 
                        distinguishable from desktops, laptops, or servers that have user accounts.) 
                        (Base) 
                3.1.8. Identifies all user and nonuser accounts (refers to user accounts that are on a 
                        system.  Examples of nonuser accounts are accounts such as an IP that is set up 
                        for printing.  Data user accounts are created to pull generic information from a 
                        database or a guest/anonymous account for generic login purposes that are not 
                        associated with a single user or a specific group of users.) (Base) 
                3.1.9. Ensures that accounts are terminated or deactivated once access is no longer 
                       required. (Base) 
                3.1.10. Identifies and controls use of shared accounts. (Base) 
        3.2.    Please provide any additional information on the effectiveness of the organization’s 
                identity and access management program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
       OMB and DHS have determined that Federal identity management (HSPD‐12) is among the 
        areas where additional controls need to be developed.  See also OMB M‐04‐04 for web‐based 
        systems.  
       Strong information system authentication requires multiple factors to securely authenticate a 
        user.  Secure authentication requires something you have, something you are, and something 
        you know.  A single‐factor authentication mechanism, such as a username and password, is 
        insufficient to block even basic attackers.  
       The USG will first move to a two‐factor authentication using PIV cards, though a stronger 
        authentication solution would include all three factors. 
       Enhanced identity management solutions also support the adoption of additional nonsecurity 
        benefits, such as single sign‐on, more useable systems, and enhanced identity capabilities for 
        legal and nonrepudiation needs.  


                                                                                                 Page 19
                     Treasury Inspector General for Tax Administration – Federal
                  Information Security Management Act Report for Fiscal Year 2012



        A key goal of identity and access management is to make sure that access rights are only given 
         to the intended individuals and/or processes.2  
        To have a capable identity management program, this capability needs to be:  
              o   Relatively complete, covering all accounts.  
              o   Relatively timely, being able to find and remove stale or compromised accounts faster 
                  than they can be exploited.  

4.       INCIDENT	RESPONSE	AND	REPORTING 
         4.1.     Has the organization established an incident response and reporting program that is 
                  consistent with FISMA requirements, OMB policy, and applicable NIST guidelines?  If 
                  yes, besides the improvement opportunities that may have been identified by the OIG, 
                  does the program include the following attributes: 
                  4.1.1. Documented policies and procedures for detecting, responding to, and 
                         reporting incidents (NIST 800‐53: IR‐1). (Base) 
                  4.1.2. Comprehensive analysis, validation, and documentation of incidents. (KFM) 
                  4.1.3. When applicable, reports to US‐CERT within established time frames 
                         (NIST 800‐53, 800‐61, and OMB M‐07‐16, M‐06‐19). (KFM) 
                  4.1.4. When applicable, reports to law enforcement within established time frames 
                         (SP 800‐86). (KFM) 
                  4.1.5. Responds to and resolves incidents in a timely manner, as specified in 
                            organization policy or standards, to minimize further damage (NIST 800‐53, 
                            800‐61, and OMB M‐07‐16, M‐06‐19). (KFM) 
                  4.1.6. Is capable of tracking and managing risks in a virtual/cloud environment, if 
                         applicable. (Base) 
                  4.1.7. Is capable of correlating incidents. (Base) 
                  4.1.8. There is sufficient incident monitoring and detection coverage in accordance 
                            with Government policies (NIST 800‐53, 800‐61, and OMB M‐07‐16, M‐06‐19). 
                            (Base) 
         4.2.     Please provide any additional information on the effectiveness of the organization’s 
                  incident management program that was not noted in the questions above. 



2
  This is done, of course, by establishing a process to assign attributes to a digital identity and by connecting an
individual to that identity. However, this would be pointless without subsequently using it to control access.
                                                                                                                Page 20
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



Purpose and Use  
These questions are being asked for the following reasons:  
        Given real world realities, it is reasonable to expect that some attacks will succeed.  
         Organizations need to be able to detect those attacks.  Ideally, organizations would defend 
         against those attacks in real time; but at a minimum, organizations are expected to determine 
         the kinds of attacks that are most successful.  
        This allows the organization to use this information about successful attacks and their impact to 
         make informed risk‐based decisions about where it is most cost effective and essential to focus 
         security resources.  

5.       RISK	MANAGEMENT 
         5.1.    Has the organization established a risk management program that is consistent with 
                 FISMA requirements, OMB policy, and applicable NIST guidelines?  If yes, besides the 
                 improvement opportunities that may have been identified by the OIG, does the 
                 program include the following attributes: 
                 5.1.1. Documented and centrally accessible policies and procedures for risk 
                         management, including descriptions of the roles and responsibilities of 
                         participants in this process. (Base) 
                 5.1.2. Addresses risk from an organization perspective with the development of a 
                         comprehensive governance structure and organization‐wide risk management 
                         strategy as described in NIST 800‐37, Rev. 1. (Base) 
                 5.1.3. Addresses risk from a mission and business process perspective and is guided by 
                         the risk decisions at the organizational perspective, as described in NIST 800‐37, 
                         Rev. 1. (Base) 
                 5.1.4. Addresses risk from an information system perspective and is guided by the risk 
                         decisions at the organizational perspective and the mission and business 
                         perspective, as described in NIST 800‐37, Rev. 1. (Base) 
                 5.1.5. Categorizes information systems in accordance with Government policies. 
                        (Base) 
                 5.1.6. Selects an appropriately tailored set of baseline security controls. (Base) 
                 5.1.7. Implements the tailored set of baseline security controls and describes how the 
                         controls are employed within the information system and its environment of 
                         operation. (Base) 
                 5.1.8. Assesses the security controls using appropriate assessment procedures to 
                         determine the extent to which the controls are implemented correctly, 

                                                                                                    Page 21
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2012



                        operating as intended, and producing the desired outcome with respect to 
                        meeting the security requirements for the system. (Base) 
                5.1.9. Authorizes information system operation based on a determination of the risk 
                        to organizational operations and assets, individuals, other organizations, and 
                        the Nation resulting from the operation of the information system and the 
                        decision that this risk is acceptable. (Base) 
                5.1.10. Ensures information security controls are monitored on an ongoing basis, 
                        including assessing control effectiveness, documenting changes to the system or 
                        its environment of operation, conducting security impact analyses of the 
                        associated changes, and reporting the security state of the system to designated 
                        organizational officials. (Base) 
                5.1.11. Information system specific risks (tactical), mission/business specific risks, and 
                        organizational level (strategic) risks are communicated to appropriate levels of 
                        the organization. (Base) 
                5.1.12. Senior officials are briefed on threat activity on a regular basis by appropriate 
                        personnel (e.g., CISO). (Base) 
                5.1.13. Prescribes the active involvement of information system owners and common 
                        control providers, Chief Information Officers, senior information security 
                        officers, authorizing officials, and other roles as applicable in the ongoing 
                        management of information system‐related security risks. (Base) 
                5.1.14. Security authorization package contains system security plan, security 
                        assessment report, and POA&M in accordance with Government policies 
                        (NIST SP 800‐18, SP 800‐37). (Base) 
                5.1.15. Security authorization package contains accreditation boundaries for 
                        organization information systems defined in accordance with Government 
                        policies. (Base) 
        5.2.    Please provide any additional information on the effectiveness of the organization’s risk 
                management program that was not noted in the questions above. 
Purpose and Use:  
These questions are being asked for the following reasons:  
       One goal in issuing these FISMA questions is to further empower OIGs to focus on how agencies 
        are evaluating risk and prioritizing security issues.  
       OIGs are encouraged to use a type of risk analysis as specified in NIST 800‐39 to evaluate 
        findings and compare those to (1) existing organization priorities and (2) Administration 


                                                                                                    Page 22
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



         priorities and key FISMA metrics identified in the CIO metrics to determine areas of weakness 
         and highlight the significance of security issues.  

6.       SECURITY	TRAINING 
         6.1.    Has the organization established a security training program that is consistent with 
                 FISMA requirements, OMB policy, and applicable NIST guidelines?  If yes, besides the 
                 improvement opportunities that may have been identified by the OIG, does the 
                 program include the following attributes: 
                 6.1.1. Documented policies and procedures for security awareness training 
                        (NIST 800‐53: AT‐1). (Base) 
                 6.1.2. Documented policies and procedures for specialized training for users with 
                        significant information security responsibilities. (Base) 
                 6.1.3. Security training content based on the organization and roles, as specified in 
                        organization policy or standards. (Base) 
                 6.1.4. Identification and tracking of the status of security awareness training for all 
                         personnel (including employees, contractors, and other organization users) with 
                         access privileges that require security awareness training. (KFM) 
                 6.1.5. Identification and tracking of the status of specialized training for all personnel 
                         (including employees, contractors, and other organization users) with significant 
                         information security responsibilities that require specialized training. (KFM) 
                 6.1.6. Training material for security awareness training does not contain appropriate 
                        content for the organization (NIST SP 800‐50, SP 800‐53). (Base) 
         6.2.    Please provide any additional information on the effectiveness of the organization’s 
                 security training program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        Some of the most effective attacks on cyber‐networks world‐wide currently are directed at 
         exploiting user behavior.  These include phishing attacks, social engineering to obtain 
         passwords, and introduction of malware via removable media.  
        These threats are especially effective when directed at those with elevated network privileges 
         and/or other elevated cyber responsibilities.  
        DHS has determined that some metrics in this section are prioritized as Key FISMA Metrics.  
        Some questions in this section also contain baseline information to be used to assess future 
         improvement in performance.  

                                                                                                    Page 23
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



        The metrics will be used to assess the extent to which organizations are providing adequate 
         training to address these attacks and threats.  

7.       PLAN	OF	ACTION	&	MILESTONES	(POA&M) 
         7.1.    Has the organization established a POA&M program that is consistent with FISMA 
                 requirements, OMB policy, and applicable NIST guidelines and tracks and monitors 
                 known information security weaknesses?  If yes, besides the improvement opportunities 
                 that may have been identified by the OIG, does the program include the following 
                 attributes: 
                 7.1.1. Documented policies and procedures for managing IT security weaknesses 
                         discovered during security control assessments and requiring remediation. 
                         (Base) 
                 7.1.2. Tracks, prioritizes, and remediates weaknesses. (Base) 
                 7.1.3. Ensures remediation plans are effective for correcting weaknesses. (Base) 
                 7.1.4. Establishes and adheres to milestone remediation dates. (Base) 
                 7.1.5. Ensures resources are provided for correcting weaknesses. (Base) 
                 7.1.6. POA&Ms include security weaknesses discovered during assessments of security 
                         controls and requiring remediation.  (Do not need to include security weakness 
                         due to a risk‐based decision to not implement a security control) 
                         (OMB M‐04‐25). (Base) 
                 7.1.7. Costs associated with remediating weaknesses are identified (NIST SP 800‐53, 
                        Rev. 3, Control PM‐3 and OMB M‐04‐25). (Base) 
                 7.1.8. Program officials and contractors report progress on remediation to CIO on a 
                         regular basis, at least quarterly, and the CIO centrally tracks, maintains, and 
                         independently reviews/validates the POA&M activities at least quarterly 
                         (NIST SP 800‐53, Rev. 3, Control CA‐5, and OMB M‐04‐25). (Base) 
         7.2.    Please provide any additional information on the effectiveness of the organization’s 
                 POA&M program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        POA&M processes are important as part of the risk management process to track problems and 
         to decide which ones to address.  




                                                                                                    Page 24
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012




8.       REMOTE	ACCESS	MANAGEMENT 
         8.1.    Has the organization established a remote access program that is consistent with FISMA 
                 requirements, OMB policy, and applicable NIST guidelines?  If yes, besides the 
                 improvement opportunities that may have been identified by the OIG, does the 
                 program include the following attributes: 
                 8.1.1. Documented policies and procedures for authorizing, monitoring, and 
                         controlling all methods of remote access (NIST 800‐53: AC‐1, AC‐17). (Base) 
                 8.1.2. Protects against unauthorized connections or subversion of authorized 
                        connections. (Base) 
                 8.1.3. Users are uniquely identified and authenticated for all access (NIST 800‐46, 
                        Section 4.2, Section 5.1). (Base) 
                 8.1.4. Telecommuting policy is fully developed (NIST 800‐46, Section 5.1). (Base) 
                 8.1.5. If applicable, multifactor authentication is required for remote access 
                        (NIST 800‐46, Section 2.2, Section 3.3). (KFM) 
                 8.1.6. Authentication mechanisms meet NIST Special Publication 800‐63 guidance on 
                        remote electronic authentication, including strength mechanisms. (Base) 
                 8.1.7. Defines and implements encryption requirements for information transmitted 
                        across public networks. (KFM) 
                 8.1.8. Remote access sessions, in accordance to OMB M‐07‐16, are timed out after 
                        30 minutes of inactivity, after which reauthentication is required. (Base) 
                 8.1.9. Lost or stolen devices are disabled and appropriately reported (NIST 800‐46, 
                        Section 4.3, US‐CERT Incident Reporting Guidelines). (Base) 
                 8.1.10. Remote access rules of behavior are adequate in accordance with Government 
                         policies (NIST 800‐53, PL‐4). (Base) 
                 8.1.11. Remote access user agreements are adequate in accordance with Government 
                         policies (NIST 800‐46, Section 5.1, NIST 800‐53, PS‐6). (Base) 
         8.2.    Please provide any additional information on the effectiveness of the organization’s 
                 remote access management that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        Adequate control of remote connections is a critical part of boundary protection.  



                                                                                                   Page 25
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



        Attackers exploit boundary systems on Internet‐accessible DMZ networks (and on internal 
         network boundaries) and then pivot to gain deeper access on internal networks.  Responses to 
         the above questions will help agencies deter, detect, and defend against unauthorized network 
         connections/access to internal and external networks.  
        Remote connections allow users to access the network without gaining physical access to 
         organization space and the computers hosted there.  Moreover, the connections over the 
         Internet provide opportunities for compromise of information in transit.  Because these 
         connections are beyond physical security controls, they need compensating controls to ensure 
         that only properly identified and authenticated users gain access and that the connections 
         prevent hijacking by others.  

9.       CONTINGENCY	PLANNING 
         9.1.   Has the organization established an enterprise‐wide business continuity/disaster 
                recovery program that is consistent with FISMA requirements, OMB policy, and 
                applicable NIST guidelines?  If yes, besides the improvement opportunities that may 
                have been identified by the OIG, does the program include the following attributes: 
                9.1.1. Documented business continuity and disaster recovery policy providing the 
                        authority and guidance necessary to reduce the impact of a disruptive event or 
                        disaster (NIST 800‐53: CP‐1). (Base) 
                9.1.2. The organization has performed an overall Business Impact Analysis (BIA) 
                       (NIST SP 800‐34). (Base) 
                9.1.3. Development and documentation of division, component, and IT infrastructure 
                       recovery strategies, plans, and procedures (NIST SP 800‐34). (Base) 
                9.1.4. Testing of system‐specific contingency plans. (Base) 
                9.1.5. The documented business continuity and disaster recovery plans are in place 
                       and can be implemented when necessary (FCD1, NIST SP 800‐34). (Base) 
                9.1.6. Development and fully implementable of test, training, and exercise (TT&E) 
                       programs (FCD1, NIST SP 800‐34, NIST 800‐53). (Base) 
                9.1.7. Performance of regular ongoing testing or exercising of business continuity/ 
                        disaster recovery plans to determine effectiveness and to maintain current 
                        plans. (Base) 
                9.1.8. After‐action report that addresses issues identified during contingency/disaster 
                       recovery exercises (FCD1, NIST SP 800‐34). (Base) 
                9.1.9. Systems that have alternate processing sites (FCD1, NIST SP 800‐34, 
                       NIST SP 800‐53). (Base) 

                                                                                                Page 26
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2012



                9.1.10. Alternate processing sites are subject to the same risks as primary sites (FCD1, 
                        NIST SP 800‐34, NIST SP 800‐53). 
                9.1.11. Backups of information that are performed in a timely manner (FCD1, 
                        NIST SP 800‐34, NIST SP 800‐53). (Base) 
                9.1.12. Contingency planning that considers supply chain threats. (Base) 
        9.2.    Please provide any additional information on the effectiveness of the organization’s 
                contingency planning program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
       Contingency planning deals with risks which occur rarely.  As such, there is a temptation to 
        ignore these risks.  
       The purpose of this section is to determine if the organization is giving adequate attention to 
        the rare events which have such significant consequences that they become first‐priority risks.  

10.     CONTRACTOR	SYSTEMS 
        10.1. Has the organization established a program to oversee systems operated on its behalf 
                by contractors or other entities, including organization systems and services residing in 
                the cloud external to the organization?  If yes, besides the improvement opportunities 
                that may have been identified by the OIG, does the program includes the following 
                attributes: 
                10.1.1. Documented policies and procedures for information security oversight of 
                        systems operated on the organization’s behalf by contractors or other entities, 
                        including organization systems and services residing in public cloud. (Base) 
                10.1.2. The organization obtains sufficient assurance that security controls of such 
                        systems and services are effectively implemented and comply with Federal and 
                        organization guidelines. (Base) 
                10.1.3. A complete inventory of systems operated on the organization’s behalf by 
                        contractors or other entities, including organization systems and services 
                        residing in public cloud. (Base) 
                10.1.4. The inventory identifies interfaces between these systems and 
                        organization‐operated systems (NIST 800‐53: PM‐5). (Base) 
                10.1.5. The organization requires appropriate agreements (e.g., MOUs, Interconnection 
                        Security Agreements, contracts, etc.) for interfaces between these systems and 
                        those that it owns and operates. (Base) 

                                                                                                  Page 27
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



               10.1.6. The inventory of contractor systems is updated at least annually. (Base) 
               10.1.7. Systems that are owned or operated by contractors or entities, including 
                       organization systems and services residing in public cloud, are compliant with 
                       FISMA requirements, OMB policy, and applicable NIST guidelines. (Base) 
       10.2. Please provide any additional information on the effectiveness of the organization’s 
             contractor systems program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
      These questions are being asked because in the past some Federal agencies tended to assume 
       that they were not responsible for managing the risk of contractor systems.  
      The key question is “Are these contractor‐operated systems being managed to ensure that they 
       have adequate security and can the DAA make an informed decision about whether or not to 
       accept any residual risk?”  

11.    SECURITY	CAPITAL	PLANNING 
       11.1. Has the organization established a security capital planning and investment program for 
               information security?  If yes, besides the improvement opportunities that may have 
               been identified by the OIG, does the program include the following attributes: 
               11.1.1. Documented policies and procedures to address information security in the 
                       capital planning and investment control (CPIC) process. (Base) 
               11.1.2. Includes information security requirements as part of the capital planning and 
                       investment process. (Base) 
               11.1.3. Establishes a discrete line item for information security in organizational 
                       programming and documentation (NIST 800‐53: SA‐2). (Base) 
               11.1.4. Employs a business case/Exhibit 300/Exhibit 53 to record the information 
                       security resources required (NIST 800‐53: PM‐3). (Base) 
               11.1.5. Ensures that information security resources are available for expenditure as 
                       planned. (Base) 
       11.2. Please provide any additional information on the effectiveness of the organization’s 
             security capital planning program that was not noted in the questions above. 




                                                                                                   Page 28
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



Purpose and Use  
These questions are being asked for the following reasons:  
      One key area of capital investment in the next few years will be investments in the tools and 
       other infrastructure needed for adequate continuous monitoring.  Fortunately, most of these 
       tools also support (and are needed for) good network and system operations.  Thus, many of 
       these tools may already be in place.  
      This section might equally consider operational budgeting.  Clearly, good security requires a 
       wise investment of operational resources, not just capital ones. 




                                                                                                Page 29
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2012



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Bret Hunter, Senior Auditor
Mary Jankowski, Senior Auditor
Louis Lee, Senior Auditor
Midori Ohno, Senior Auditor
Esther Wilson, Senior Auditor
Linda Nethery, Information Technology Specialist




                                                                                     Page 30
               Treasury Inspector General for Tax Administration – Federal
            Information Security Management Act Report for Fiscal Year 2012



                                                                 Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                       Page 31
              Treasury Inspector General for Tax Administration – Federal
           Information Security Management Act Report for Fiscal Year 2012



                                                                          Appendix IV

 Treasury Inspector General for Tax Administration
  Information Technology Security-Related Reports
Issued During the Fiscal Year 2012 Evaluation Period

 1. Treasury Inspector General for Tax Administration (TIGTA), Ref. No. 2011-20-076,
    The IRS2GO Smartphone Application Is Secure, but Development Process Improvements
    Are Needed (Aug. 2011).
 2. TIGTA, Ref. No. 2011-20-088, The Modernized e-File Release 6.2 Included
    Enhancements, but Improvements Are Needed for Tracking Performance Issues and
    Security Weaknesses (Sept. 2011).
 3. TIGTA, Ref. No. 2011-20-116, Treasury Inspector General for Tax Administration –
    Federal Information Security Management Act Report for Fiscal Year 2011 (Sept. 2011).
 4. TIGTA, Ref. No. 2011-20-111, Continued Centralization of the Windows Environment
    Would Improve Administration and Security Efficiencies (Sept. 2011).
 5. TIGTA, Ref. No. 2011-20-101, Security Controls Over Wireless Technology Were
    Generally in Place; However, Further Actions Can Improve Security (Sept. 2011).
 6. TIGTA, Ref. No. 2011-20-099, The Mainframe Databases Reviewed Met Security
    Requirements; However, Automated Security Scans Were Not Performed (Sept. 2011).
 7. TIGTA, Ref. No. 2012-20-019, The Computer Security Incident Response Center Is
    Effectively Performing Most of Its Responsibilities, but Further Improvements Are
    Needed (Mar. 2012).
 8. TIGTA, Ref. No. 2012-20-041, Disaster Recovery Testing Is Being Adequately
    Performed, but Problem Reporting and Tracking Can Be Improved (May 2012).
 9. TIGTA, Ref. No. 2012-20-063, Enterprise-Level Oversight Is Needed to Ensure
    Adherence to Windows Server Security Policies (June 2012).




                                                                                   Page 32
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2012



                                                                               Appendix V

                           Glossary of Terms

Term                      Definition
Accreditation (or         Includes all components of an information system to be authorized
Authorization) Boundary   for operation by an authorizing official and excludes separately
                          authorized systems to which the information system is connected.
Administrative Account    A user account with full privileges on a computer.
Authentication            Verifying the identity of a user, process, or device, often as a
                          prerequisite to allowing access to resources in an information
                          system.
Boundary Protection       Monitoring and control of communications at the external
                          boundary of an information system to prevent and detect malicious
                          and other unauthorized communication through the use of
                          boundary protection devices.
Boundary System           Physical or logical perimeter of a system.
Cloud (Computing)         The use of computing resources (hardware and software) that are
Environment               delivered as a service over a network (typically the Internet). The
                          name comes from the use of a cloud-shaped symbol as an
                          abstraction for the complex infrastructure it contains in system
                          diagrams.
Configuration Baseline    A set of specifications for a system, or a configuration item within
                          a system, that has been formally reviewed and agreed on at a given
                          point in time, and that can be changed only through change control
                          procedures. The baseline configuration is used as a basis for
                          future builds, releases, and/or changes.
Configuration Items       Assets, service components, or other items that are (or will be)
                          controlled by configuration management.




                                                                                       Page 33
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




Term                        Definition
Configuration Management A collection of activities focused on establishing and maintaining
                         the integrity of products and systems through control of the
                         processes for initializing, changing, and monitoring the
                         configurations of those products and systems throughout the
                         system development life cycle.
Demilitarized Zone          A network segment inserted as a “neutral zone” between an
                            organization’s private network and the Internet.
Device Identification and   The information system uniquely identifies and authenticates
Authentication              before establishing a connection. See Authentication.
Federal Desktop Core        OMB-mandated set of security configurations for all Federal
Configuration               workstation and laptop devices that run either Windows XP or
                            Vista.
Firewall                    A gateway that limits access between networks in accordance with
                            local security policy.
General Support System      An interconnected set of information resources under the same
                            direct management control that shares common functionality. It
                            normally includes hardware, software, information, data,
                            applications, communications, and people.
Identity and Access         Addresses the mission-critical need to ensure appropriate access to
Management                  resources across increasingly heterogeneous technology
                            environments and to meet increasingly rigorous compliance
                            requirements.
Internal Revenue Manual     The IRS publication of its information security policies,
                            guidelines, standards, and procedures in order for IRS divisions
                            and offices to carry out their respective responsibilities in
                            information security.
Internet Protocol           Standard protocol for transmission of data from source to
                            destinations in packet-switched communications networks and
                            interconnected systems of such networks.
Least Privilege             The security objective of granting users only those accesses they
                            need to perform their official duties.




                                                                                       Page 34
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




Term                         Definition
Logical Access               Controls used to determine the electronic information and systems
                             that users and other systems may access and the actions that may
                             be performed to the information accessed.
Malware                      A program that is inserted into a system, usually covertly, with the
                             intent of compromising the confidentiality, integrity, or availability
                             of the computer’s data, applications, or operating system.
Milestone                    The “go/no-go” decision point in a project; it is sometimes
                             associated with funding approval to proceed.
Multifactor Authentication   Authentication using two or more factors to achieve
                             authentication. Factors include: (1) something you know (e.g.,
                             password/PIN); (2) something you have (e.g., cryptographic
                             identification device, token); or (3) something you are (e.g.,
                             physical characteristic).
nCircle                      An automated tool that scans computers for vulnerabilities related
                             to network exploits and renders a report of findings.
Operating System             A set of software that manages computer hardware resources and
                             provides common services for computer programs. The operating
                             system is a vital component of the system software in a computer
                             system. Application programs require an operating system to
                             function.
Patch Management             The systematic notification, identification, deployment,
                             installation, and verification of operating system and application
                             software code revisions. These revisions are known as patches, hot
                             fixes, and service packs.
Phishing (Attack)            Tricking individuals into disclosing sensitive personal information
                             through deceptive computer-based means.
Plaintext                    Intelligible data that has meaning and can be understood without
                             the application of decryption.
Plan of Action and           A document that identifies tasks needing to be accomplished. It
Milestones                   details resources required to accomplish the elements of the plan,
                             any milestones in meeting the tasks, and scheduled completion
                             dates for the milestones.



                                                                                           Page 35
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




Term                        Definition
Policy Checker              An automated tool that reads the security settings of computers
                            and logs any noncompliant setting to text files.
Privileged Account          Individuals who have access to set “access rights” for users on a
                            given system. Sometimes referred to as system or network
                            administrative accounts.
Remote Access               Access to an organizational information system by a user (or an
                            information system acting on behalf of a user) communicating
                            through an external network (e.g., the Internet).
Rogue Computer              An unauthorized computer on a network.
Security Capital Planning   The integration of information technology security and capital
                            planning processes to ensure that agency resources are protected
                            and risk is effectively managed.
Separation of Duties        As a security principle, its primary objective is the prevention of
                            fraud and errors. This objective is achieved by disseminating the
                            tasks and associated privileges for a specific business process
                            among multiple users.
Single-factor               Authentication using one factor (e.g., a username or password) to
Authentication              achieve authentication. See Authentication.
Single Sign-On              Provides the capability to authenticate once and be subsequently
                            and automatically authenticated when accessing various target
                            systems. It eliminates the need to separately authenticate and sign
                            on to individual applications and systems, essentially serving as a
                            user surrogate between client workstations and target systems.
Social Engineering          An attempt to trick someone into revealing information (e.g., a
                            password) that can be used to attack systems or networks.
Two-factor Authentication   Authentication using two factors to achieve authentication. See
                            Multifactor Authentication.
US-CERT                     A partnership between the Department of Homeland Security and
                            the public and private sectors established to protect the Nation’s
                            Internet infrastructure. US-CERT coordinates defense against and
                            responses to cyberattacks across the Nation.




                                                                                         Page 36
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




Term                         Definition
Virtual Environment          The physical system running a host operating system and
                             hypervisor (i.e., software that allows a single host to run one or
                             more guest operating systems).
Vulnerability Scanning       Scanning for specific functions, ports, protocols, and services that
(i.e., Software Assessing)   should not be accessible to users or devices and for improperly
                             configured or incorrectly operating information flow mechanisms.
Zero-Day Vulnerability       An exploit that takes advantage of a security vulnerability on the
                             same day that the vulnerability becomes generally known. There
                             are zero days between the time the vulnerability is discovered and
                             the first attack. Given time, the software company can fix the code
                             and distribute a patch or software update.




                                                                                           Page 37
